MO

2o- tV*

No.

3fn tfje

Supreme Court of tfje ©ntteb States!
SAMUEL H. SLOAN,
Petitioner,
v.
MARIA CHILDRESS, SHAYAM RAMAN, SUSAN SWECKER,
CHRIS BOLLING, MARK HERRING, RALPH NORTHAM,
LAWRENCE JANOW, J. MICHAEL GAMBLE, WILLIAM G.
PETTY, FRANK G. DAVIDSON III, NORMAN K. MOON,
CHARLES EDWARD ROBERTS, DARRELL JAY ROBERTS,
WILLIAM P. BARR, UNITED STATES DEPARTMENT
OF JUSTICE, UNITED STATES OF AMERICA,
Respondents.
On Petition for a Writ of Certiorari to the
United States Court of Appeals for Fourth Circuit
PETITION FOR A WRIT OF CERTIORARI

Samuel H. Sloan
Petitioner Pro Se
1664 Davidson Avenue:
Apartment IB
Bronx, NY 10453
(917) 659-3397
June 7,2021

Received
JUN f 0 2021
_fu?R#r °EFrTnMDTLF,flK

1

QUESTIONS PRESENTED
1. Where the questions of the custody of a child
have been decided by the Supreme Court of New
York State, when may a family court of a county in
Virginia take jurisdiction over a case and award
custody of the child to unrelated third parties?
2. Where the Virginia Supreme Court has disqual­
ified a judge from hearing the case and the judge hears
and purports to decide the case anyway what is the
legal effect of the judges orders?
3. Where a child has been kidnapped from a
foreign country and brought into the jurisdiction, and
a Virginia judge was directly involved in the kidnap­
ping of the child, is the judge immune from suit and
may the judge award the child to unrelated third
partied.
4. Where as here the Amherst County Common­
wealth Attorney has decided that the courts of Virginia
have no jurisdiction over the matter of the custody of
a child, and has dismissed the proceedings brought
in that county, may a Lynchburg judge take juris­
diction over the child and award it to unrelated third
parties?
5. Where both of the parents of a child are
devoted followers of the religion of Islam may a
Virginia court order that the child be enrolled in a
Christian church and school for the purpose of changing
the religious beliefs of the child?
6. Where the parents of the child object to enrol­
ling the child in a Christian religious school and rather
insist that the child attend general public school and

11

the wishes of the parents are ignored what is the
legal effect of the education of the child?
7. Where as here the child has only attended
schools affiliated with Jerry Falwell and those schools
are not recognized by the Virginia Department of
' Education, is a diploma issued by those schools legally
valid and may the child attend higher education?

Ill

PARTIES TO THE PROCEEDINGS
Petitioner
Samuel H. Sloan

Respondents
Maria Childress
Shayam Raman
Susan Swecker
Chris Bolling
Mark Herring
Ralph Northam
Lawrence Janow
J. Michael Gamble
William G. Petty
Frank G. Davidson, III
Norman K. Moon
Charles Edward Roberts
Darrell Jay Roberts
William P. Barr, United States Department
of Justice
United States of America

\

IV

LIST OF PROCEEDINGS
United States Court of Appeals for the Fourth Circuit
No. 20-1566
Samuel H. Sloan, Plaintiff-Appellant, v. Maria
Childress; Shayam Raman; Susan Swecker; Chris
Bolling; Mark Herring; Ralph Northam; Lawrence
Janow; J. Michael Gamble; William G. Petty; Frank
G. Davidson, III; Norman K. Moon; Charles Edward
Roberts; Darrell Roberts; Jefferson Beauregard Sessions
III; United States Department of Justice, DefendantsAppellees.
Date of Final Opinion: October 26, 2020
Date of Rehearing Denial: January 8, 2021

United States District Court for the Eastern District
of Virginia Richmond Division
Civil Action No. 3:18cv260
Samuel H. Sloan, Plaintiff, v. Maria Childress, Et
Al., Defendants.
Date of Final Opinion: September 6, 2019
Date of Rehearing Denial: May 14, 2020

V

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED..............................

1

PARTIES TO THE PROCEEDINGS................

m

LIST OF PROCEEDINGS.................................

IV

TABLE OF AUTHORITIES..............................

IX

PETITION FOR A WRIT OF CERTIORARI....

1

OPINIONS BELOW................................ ..........

1

JURISDICTION............. .............. .....................

1

STATEMENT OF THE CASE............. .............

2

REASONS FOR GRANTING THE PETITION...... 29
CONCLUSION

32

VI

TABLE OF CONTENTS - Continued
Page

APPENDIX TABLE OF CONTENTS
Opinions and Orders
Opinion of the United States Court of Appeals for
the Fourth Circuit (October 26, 2020)............... la
Memorandum Opinion of the United States
District Court for the Eastern District of
Virginia Denying Motion for Reconsideration
(May 14, 2020)........................................................ 3a
Final Order of the District Court Accompanying
Memorandum Opinion (May 14, 2020)............ 22a
Memorandum Opinion of the District Court for
the Eastern District of Virginia Granting
Motion to Dismiss and Dismiss Sloan’s
Amended Complaint (September 6, 2019)....... 24a
Final Order of the District Court Accompanying
Memorandum Opinion (September 6, 2019)... 44a
Memorandum Order of the United States
District Court for the Eastern District of
46a
Virginia (December 12, 2018)
Rehearing Order
Order of the United States Court of Appeals for
the Fourth Circuit Denying Petition for
Rehearing (January 8, 2021).................... ........ 55a

Vll

TABLE OF CONTENTS - Continued
Page
Other Documents
Verified Complaint
(April 23, 2018)..............................

57a

Brief in Support of Motion to Dismiss
(May 17, 2018)........... ...................

141a

Reply to the Lawsuit
(May 19, 2018)..............................

148a

Affidavit of Shamema H. Sloan ....

159a

Testimony of Shamema H. Sloan .

161a

Amended Complaint
(January 18, 2019).........................

166a

Brief in Support of Renewed Motion to Dismiss
191a
Amended Complaint (January 25, 2019)
Exhibits to Complaint
Exhibit A—Awadallah Writ of Habeas Corpus
(December 9, 1981).......... ........................... 196a
Exhibit B—Answer filed in Bronx Supreme
Court by Appointed Counsel Philip Newman
(December 22, 1981)
206a
Exhibit C—Decision of the Bronx Supreme Court
Giving Legal Custody to Mother
(June 7, 1982)
251a
Exhibit D—Letter Denying Passport March,
1982 (March 16, 1982)..... ..................
256a
Exhibit E—Bronx Supreme Court Order
Awarding Full Custody (October 27, 1994)... 258a
Exhibit F—Appointment of Sloan as
261a
Administrator (June 19, 2017)

Vlll

TABLE OF CONTENTS - Continued
Page
Exhibit G—Judge Gamble Waiver of
Disqualification (August 7, 1991).................. 267a
Exhibit H—Alma Dawson Set Aside of Will
(March 25, 1986)................................................ 270a
Exhibit I—Gary Feulner Letter to Judge Miller
(February 28, 1987)........................................... 273a
Exhibit M—Charles Roberts Petition for a Writ
281a
of Mandamus (August 30, 1990)
Exhibit N—Chief Judge Mosby Perrow III
Disqualified All of the Judges of the 24th
291a
Judicial Circuit (June 18, 1991)
Exhibit O—Bill of Complaint to Annul Marriage
of Alma Coates Dawson (Sloan)
304a
(May 23, 1986).......... ....................................
Exhibit P—Sloan’s Complaint Against Phone
Conversation Between Judge Glen and Judge
389a
Janow (September 4, 1986)
Exhibit Q—Sloan’s Complaint About Misconduct
of Judge Gamble and Janow
410a
(February 3, 1991)
Exhibit V—Mandamus Petition to Remove Judge
426a
(April 25, 2018)
Exhibit W—Appeal of Criminal Conviction to
Court of Appeals of Virginia Rehearing and
rehearing En Banc Granted (April 25, 2018) 495a
Exhibit X, Y—Transcript of Proceedings Volume
744a
II Relevant Excerpts (April 25, 2018)
Exhibit Z—Transcript of Proceedings Relevant
882a
Excerpts (August 24, 1995)

IX

TABLE OF AUTHORITIES
Page
CASES
Bennett v. Jeffreys,
40 N.Y.2d 543 (1976)..

31

Bradley v. Fisher,
13 Wall. 335 (1872)...

30

Marbury v. Madison,
5 U.S. 137 (1803).....

18

Pierson v. Bay,
386 U.S. 547 (1967)..

29, 30

Scott v. Stansfield,
L.R. 3 Ex. 220 (1868)

30

Stump v. Sparkman,
435 U.S. 349 (1978)..

29

CONSTITUTIONAL PROVISIONS
U.S. Const, amend. V....

16

U.S. Const, amend. XIV

16

STATUTES
28 U.S.C. § 1254(1)

1

42 U.S.C. § 1983...

16

X

TABLE OF AUTHORITIES - Continued
Page

OTHER AUTHORITIES
South Carolina General Assembly,
Judge Roe Retirement Announcement,
May 18, 2016, https://www.scstatehouse.
gov/sessl21_2015-2016/bills/1326.htm....

14

Who’s Who in American Women
(1st Edition).............................................. 2, 5, 27

1

PETITION FOR A WRIT OF CERTIORARI
Petitioner, Samuel H. Sloan, respectfully petitions
for a writ of certiorari to review the judgment of the
United States Court of Appeals for the Fourth Circuit
in this case.

OPINIONS BELOW
The Opinion of the United States Court of Appeals
for the Fourth Circuit was entered on October 26, 2020.
(App.la). The Memorandum opinion of the United
States District Court for the Eastern District of
Virginia was entered on May 14, 2020. (App.22a). These
opinions have not been designated for publication.

JURISDICTION
A timely petition for rehearing was denied by
the United States Court of Appeals for the Fourth
Circuit on January 8, 2021. (App.55a). This Court
has jurisdiction under 28 U.S.C. § 1254(l). This Court,
on March 19, 2020, extended the time to file a petition
for writ of certiorari to 150 days following the entry
of a final order in the appeals court.

2

STATEMENT OF THE CASE
Petitioner Appellant and his family did not ask,
petition or apply to come here to USA. We were
kidnapped or rendered or brought here by force after
the respondents spent years chasing us from country
to country believing they could get our money, property
and especially the children of petitioner. Plaintiff and
his family are Muslims and the respondents wanted
to get these children to convert them to Christianity
and enroll them in the Jerry Falwell Schools in
Lynchburg Virginia. This case follows the trend of the
USA to claim long arm jurisdiction over the entire
world and to reach out and bring us back alive.
Dr. Helen Marjorie Sloan, mother of petitioner,
was a distinguished medical doctor and child psychi­
atrist. Her biography is published in the First Edition
of Who’s Who in American Womenh. In 1990, she
was kidnapped out of her hospital room in the
Bangkok General Hospital in Bangkok Thailand where
she was suffering from pneumonia, bronchitis and
high fever. She had previously been director of a
psychiatric hospital in Virginia. She had also been
director of the Florence Crittenton Home, a home for
Unwed Mothers, and director of a hospital for near
Lynchburg called the Virginia State Colony for
Epileptics and Feebleminded.
She had to leave all that behind when she realized
she was in danger from these defendants and made a
run for it.
After being on the run for five years mostly in
the United Arab Emirates, she was brought back and

3

held in Aiken, South Carolina where she had never
been before without any notice or opportunity for a
hearing and with no summons and complaint or judi­
cial process.
The children of Petitioner Appellant were kid­
napped brought back. They were awarded custody to
non-relatives without any normal process. The mother
of one of these children then escaped with her daughter
to California. She too was hunted down. Tragically,
her daughter died after being detained for a year and
she blames these defendants for her daughter’s death.
These things happened because these defendants
were operating under the mistaken belief that Peti­
tioners family was wealthy. They believed this because
of a coincidence in names. Alfred P. Sloan Jr. had been
the richest man in the world when he died in Sloan
Kettering Hospital in 1966 because he was Chairman
and Control Stockholder of General Motors Corporation,
the largest industrial company in the world. The elder
Sloan, Leroy B. Sloan, who had been an attorney and
was Special Agent of the United States Treasury
Department and Auditor for the Internal Revenue
Service. As long as he was alive, the family was pro­
tected from these defendants because they feared the
power of the IRS. But immediately after he died, the
same attorneys started litigation to get everything.
The elder Sloan had liked to brag that he was related
in some way to that famous man, Alfred P. Sloan,
but the Sloan Family here has no known relationship
to that Sloan. The wide-spread rumor was the Sloan
Family here had net assets of over $50 million. It
was this mistaken belief that the defendants could
get this money that caused these defendants to chase
after them for years.

4

This case follows the trend of many who find
they have to leave this country and escape to enjoy
the normal benefits to which they are entitled in
retirement. The district court dismissed this case on
the ground that three of the defendants are judges.
However, none of those judges had ever been assigned
any case or had acquired jurisdiction. There was never
normal service of process or normal hearing over any
of these cases. These were judges in name only.
Petitioner happens to have been a close personal
friend of Bobby Fischer, the world chess champion.
Fischer too, like so many others, had to flee the country.
He died after five years in exile. We never found what
if anything he was accused of doing. His was just one
of the many thousands of increasing cases where
people find they have flee the USA and go to Canada
or elsewhere to escape the jurisdiction.
In the district court, the defendants argued that
the defendants are being accused of crimes including
kidnapping but only the U.S. Department of Justice
can bring such charges which are therefore invalid.
The Court of Appeals and the District Court below
have ignored the basic indisputable facts which are
established by the more than one thousand pages of
documents which were submitted as exhibits in this
case when this case was filed in district court and in
a related Petition for a Writ of Certiorari from the
Supreme Court of South Carolina more recently filed
in the United States Supreme Court as Sloan v. Sloan,
Petition for Certiorari Case No. 19-1190, which state
that the daughter of Plaintiff-Appellate and the mother
of Plaintiff-where both kidnapped by essentially these
same group of defendants. The mother of PlaintiffAppellant was Dr. Helen Marjorie Sloan, who was a

5

distinguished medical doctor and child psychiatrist
whose biography is published in the First Edition of
Who’s Who in American Women. She was kidnapped
out of her hospital room in the Bangkok General Hos­
pital in Bangkok Thailand where she was recovering
from pneumonia and high fever. She had filed suit
against much the same defendants in the Lynchburg
Circuit Court in Lynchburg Virginia alleging among
other things that they were conspiring and planning to
kidnap both herself and her granddaughter Shamema
Honzagool Sloan, then aged 8, and lock her up take
all her money and award custody of her granddaughter
to the family of Charles and Shelby Roberts, followers
of Jerry Falwell.
She had become aware of this plan and conspiracy
because at a court hearing before Judge Kristin Booth
Glen of the New York Supreme Court on or about
September 5, 1985, Judge Glen announced that she had
just received a phone call from “Judge Larry Janow”
of the Amherst County Virginia Family Court alleging
that the granddaughter Shamema Honzagool Sloan had
been kidnapped by taking her out of the Common­
wealth of Virginia and by taking her to New York.
Judge Janow had NOT informed Judge Glen that
the child had been born in New York and the ques­
tion of the custody of the child had long since been
decided by Bronx New York Supreme Court Justice
Anthony Mercorella, who had awarded custody of the
child to the natural mother of the child, Honzagool,
“for as long as she remains together with the child in
the state of New York” with visitation to the father.
However, the mother had not remained together
with the child in the State of New York. Instead the
mother had fallen under the control of a group of

6

militant Pakistanis who had come to USA on student
visas. Anybody who reads the newspapers knows how
dangerous these Pakistani militants are, as they think
nothing of killing people. They were planning to marry
Honzagool to one of themselves, ignoring the fact
that she was already married to plaintiff. This was
because photographs of the mother had been published
in the newspapers in Pakistan and in New York and
it was said that she was the most beautiful woman in
Pakistan.
Learning about the dire situation of Honzagool,
her distant cousin, Prince Siraj-ul-Mulk of Chitral who
was also a Commercial Airlines Pilot with Pakistan
International Airways, came to the USA, interviewed
Honzagool in her own native language of Khowar and
agreed to her request take her back to her mother’s
house in Pakistan.
Learning that Honzagool had come under the
complete control of a dangerous group of Pakistani
militants, the Prince of Chitral pretended to agree
with their plan to marry Honzagool to one of them,
but said that she wanted to consult with her mother
first. The militants agreed with this. The Prince had her
brought to JFK Airport. He got her on the airplane
but just then the militants realized they were being
tricked and said she could not leave because of the court
order. Just in time, Prince Siraj shut the door to the
airplane and took off, as he was the pilot. Honzagool
has never since returned to USA to this day. The names
of the Pakistani Militants controlling Honzagool have
since been put on the U.S. State Department Watch
List, so they cannot come or return to USA anymore.
Knowing that these Pakistani militants were
dangerous and searching for the child in both New

7

York and Virginia, Plaintiff hired Shelby Roberts, a
follower of Jerry Falwell, as a baby sister, to care for
the child in part because Falwell is known to be hostile
to Muslims and would not give the child to them. The
problem that developed was the husband of Shelby
Roberts, who was Charles Roberts, a disturbed man,
decided he wanted the child. Frank Davidson III, the
attorney for Charles, informed Plaintiff that Charles
was interested in getting custody. Plaintiff informed
Davidson and Roberts in unequivocal terms that under
no circumstances would either of the parents of the
child agree to allowing Charles Roberts to have custody.
On August 24, 1986, when the child was turning
four years old, Plaintiff went to Paul Monroe School,
the closest elementary to the Sloan Family Home at
917 Old Trent’s Ferry Road in Lynchburg, Virginia,
to enroll his daughter in that school. It happened by
chance that Frank G. Davidson III came there the
same day to enroll his own adopted children in that
same school. Finding that Plaintiff was enrolling his
daughter in that school, and not in a Jerry Falwell
Approved School, Davidson went to the Amherst
County Family Court and without notice or a hearing
got an immediate order from Judge Janow that
“allowed” Shamema to be enrolled in the Temple
Baptist School.
This was entirely unacceptable because Plaintiff
is not a member of the Temple Baptist School nor is
he a member of the Thomas Road Baptist Church and
both of the parents of the child are Muslims.
Recognizing that they were in a dangerous situa­
tion with even the potential for violence from Charles
Roberts, Plaintiff took his mother and daughter imme­
diately to New York. His mother, the grandmother of

8

the child, was anxious to leave. There a hearing had
previously been scheduled before Judge Kristin Booth
Glen regarding the custody and visitation with Plain­
tiffs two years older children, Peter and Mary Sloan
whose mother, Anda Baumanis of Riga, Latvia, was
not in compliance with a previous custody order.
Just as the hearing was about to commence, Judge
Glen’s phone rang. She took the call in chambers and
then came out and announced that the call was from
Judge Larry Janow in Madison Heights Virginia and he
wanted Sam Sloan and his mother arrested for taking
Shamema out of the state of Virginia because the
Roberts family was planning to seek custody of
Shamema. Therefore, Judge Janow wanted Shamema
aged 4 taken into custody by social services and
rendered or extradited from New York to Virginia.
Judge Kristin Booth Glen said that she had seen
Shamema in court the previous day but as she was
not in court on this day the child could not be
detained. However, Judge Glen was calling the New
York City Police to arrest Sam Sloan and his mother.
Also present in court were Anda’s lawyer Walter Anderocci who said he was representing Creighton Sloan
too and he was planning to take Dr. Marjorie Sloan
to a place where Creighton could come and get her.
Hearing this, Dr. Marjorie Sloan said, “I want nothing
to do with Creighton.”
The police arrived and took Sam Sloan and his
mother to jail at the New York City police station on
Elizabeth Street, the police station closest to the court­
house. However, two hours later the police released
them both saying that they had been informed by the
Amherst County Virginia Commonwealth Attorney
that there was no warrant for their arrest.

9
Realizing that defendants and the Roberts would
try again and again to get their money and the
grandchild and since the Roberts were affiliated with
the powerful religious group headed by Jerry Falwell
in Lynchburg, Virginia who wanted to convert the child
to their version of the Christian religion, Dr. Helen
Marjorie Sloan applied for and obtained passports for
herself and her granddaughter Shamema. The three
of them then caught a flight to Rio Gallegos Argentina
where Sam Sloan had a previous engagement as a
chess coach for the Polgar family team of chess players.
After the chess tournament was finished in Argen­
tina and they were preparing to leave, it was discovered
that all the credit and bank cards of Dr. Marjorie Sloan
and had been frozen and the funds of her bank accounts
were not available, so Dr. Sloan was now left destitute
and without funds.
Nevertheless, they three made their way to Buenos
Aires, Argentina and from there to Brazil and to
Asuncion, Paraguay and from there to Spain and
France. That route was chosen so they would not
land in or cross the USA, just in time as defendant
Bill Petty had sent a police officer to arrest them at
Miami Airport.
There, learning that Dr. Marjorie Sloan was in
Paris France, the police were called there and tried
to have her detained, but she again escaped. The
Sloans then went to Innsbruck, Austria and from
there to Budapest, Hungary and from there to Dubai,
United Arab Emirates where the 1986 World Chess
Olympiad was about to commence.
Sam Sloan got a job as the chess columnist for the
GULF News in Dubai which gave him enough income

10
to support his mother and daughter. They wound up
spending four years in the United Arab Emirates.
They also went to Kandy, Sri Lanka where they
hired two domestic servants, Dayawathie and Renuka,
who are still with us to this day. One of them was to
take care of the elderly grandmother, the other was
to take care of the daughter Shamema Honzagool.
On a subsequent trip in 1990, they went to
Bangkok Thailand where, after visiting the Crocodile
Farm, Dr. Sloan became ill and had to be hospitalized
in the Bangkok General Hospital with pneumonia and
high fever.
There, upon learning that Dr. Sloan had been
hospitalized and knowing that she was not willing to
return to the United States voluntarily, defendants
hired a lawyer named Boonchoo to kidnap her out of
the Bangkok General Hospital.
During the four years where they had been going
from country to county, Dr. Sloan had been interviewed
more than twenty times by various U.S. consular
officers stationed at the countries they visited. Because
previously her pension and Social Security checks had
been routed from her address to an address in North
Carolina where Creighton resided, she had specified
that her checks would be personally picked up by
herself at whatever U.S. Embassy she happened to
be near.
Dr. Sloan had made no secret of her whereabouts,
so a U.S. Vice-Counsel would often come to visit her
in view of the allegation by defendants that she had
been kidnapped and was being held against her will.
In one noteworthy instance, the U.S. Consular
Officer Robert Murphy in Abu Dhabi, knowing that

11
Sam Sloan was in USA, tried to take her by force but
as she was stronger than he was she had fought him
off so he could not take her.
Finally, Boonchoo in Bangkok Thailand kept the
hospital room under surveillance and after waiting
several days for a time when Sam Sloan went out of
the hospital, he came in with a gang of men who
injected her with knock out drugs and took her out
by force and overcame her resistance. Shamema
Honzagool, her granddaughter, was present in the
hospital room when this happened and witnessed this
kidnapping.
Boonchoo had her put unconscious on a TWA flight
to America. Defendants later testified that he had
been paid $60,000 for this.
Arriving in Silver Spring, Maryland, they tried
to have address for both her social security check and
her Virginia Supplemental Retirement System check
changed from her address at the U.S. Embassy in
Abu Dhabi to their address in Silver Spring. However,
he soon found out that these changes of address would
not be honored because Dr. Sloan had previously
strictly instructed both agencies never to change the
address for her checks because of the many times that
Creighton had changed her address to his own address
so he could get her money.
A second problem was the nursing homes in
Maryland were not willing to hold Dr. Sloan against
her will or to lock her up, as she was fully competent
and capable of managing her own affairs, especially
as she kept trying to escape.
So they devised a plan to transfer her to South
Carolina especially after learning that South Carolina

12
Law would allow her to be held in a “closed room” as
Cassel Jacobson testified, which Maryland law would
not allow.
Dr. Sloan was brought to South Carolina where
Probate Judge Sue H. Roe without holding a hearing
of any kind and without any notice to her or to Sam
Sloan who by then was back living in his mother’s
house at 917 Old Trent’s Ferry Road in Lynchburg,
Virginia with his two domestic servants from Sri
Lanka, Dayawathie and Renuka and the by then their
three children, detained her. Learning that they had
been unsuccessful in changing the mailing address
for the Social Security Checks and Virginia Supple­
mental Retirement System checks from her address
in Abu Dhabi to an address in Maryland, “Judge”
Roe ordered that the checks be sent to the defend­
ant’s address instead.
Meanwhile, the case Dr. Marjorie Sloan had filed
in the Lynchburg Circuit Court in Lynchburg, Virginia
had been assigned to Judge Ballou. However, the
defendants were able to get signed documents signed
by Dr. Sloan agreeing to dismiss the case she had filed.
These signed documents were then filed in court. She
believed that by signing these documents, she would
be released from their custody. But this did not happen.
They kept her locked up. She remained locked up in
Aiken South Carolina for 13 years until she died at
age 93.
Under the law of South Carolina and the law of
every other state, for a person to be found incompetent
and have their rights taken away, there must be
medical examinations and testimony by qualified
doctors and psychiatrists and there must be notice and

13
the opportunity for a hearing for all of the children.
None of this was done.
Moreover, in this case, “Judge” Roe specifically
ordered that the eldest son Sam Sloan NOT be notified.
During this entire time, Sam Sloan was searching for
his mother. The last time he had seen her was just
before she had been kidnapped out of the Bangkok
General Hospital. He did not even know what state
or country she had been taken to. She might have
been taken to Sri Lanka or to Virginia or to Iowa.
Eventually after searching for three months, he
found out that she was being held in Aiken South
Carolina but by order of Judge Roe he was not
allowed to see her. He was not allowed to see her nor
was she allowed to see him. Also under South Carolina
Law a hearing must be held once a year to determine
if her condition has improved. No such hearing was
ever held. Sam Sloan never received any notice of the
conditions or of the whereabouts of his mother.
Sam Sloan was one time able to get into the
prison-like facility where she was being held. One
time four years later in May 1994, this happened after
she had been kidnapped by Boonchoo in September
1990, Sam Sloan got in because the Staff of the Mattie
C. Hall Health Care Center in Aiken South Carolina
thought he was his brother. He was able to speak to
his mother for the first and only time since she had
been kidnapped in Bangkok and to observe her walking
around the facility testing all the windows and doors
to see if she could open them and escape.
When the staff of the Mattie C. Hall Health Care
Center realized Sam was not his brother, he realized
had better get out. His mother tried to leave with him

14
but was stopped by the staff. He got into his car and
drove out of town but soon the Aiken police cars
surrounded him and stopped his car, having been
called by Creighton. But they did not arrest him.
Instead they detained a young woman named Kerry
Durney who was a passenger in his car.
Dr. Helen Marjorie Sloan died on 16 May 2002 at
age 92, having been held in the Mattie C. Hall Health
Care Center for 13 years. All her pension and social
security checks and her bank accounts in Lynchburg
were gone. No accounting of funds has ever been
provided but altogether it must have been one to two
million dollars.
It is astounding that Petitioner’s mother was
psychiatrist director of the Virginia Department of
Mental Health and Hygiene and the Memorial Child
Guidance Clinic at 200 North 22nd Street, Richmond,
VA 23223 and then nevertheless she was kidnapped
in Bangkok, Thailand and taken to Aiken South
Carolina where she was held prisoner in the Mattie
C. Hall Health Care Center for 13 years until her
death at age 92.
The judge who ordered petitioner’s mother locked
up was Sue H. Roe. It was not until the retirement of
Judge Roe was announced in May 2016 at https://
www.scstatehouse.gov/sessl21_2015-2016/bills/1326.
htm that Petitioner and others discovered that Sue
H. Roe had never graduated from college, had never
been to law school, had never passed the bar examin­
ation and had never practiced law or met the qualifi­
cations to be a lawyer and yet she had conducted
hearings, made rulings on evidence and basically
pretended to be a qualified lawyer.

15
Ironically, Dr. Marjorie Sloan knew the law on
this point very well, because she was THE AUTHOR­
ITY on this law in Virginia. As she was an official of
the Commonwealth of Virginia, it had often been up
to her to decide which prisoners went free and which
were to be locked up in jail or in a psychiatric hospital.
She could order a prisoner released or kept detained.
After Dr. Helen Marjorie Sloan had been kid­
napped out of the Bangkok General Hospital, Boonchoo
had plaintiff arrested. However, a fellow chess player
bailed Plaintiff out of jail just in time as Boonchoo
was coming back to detain the three Sloan children,
Shamema, Michael and Jessica. Plaintiff took the
three children to the town of Mae Sai, most Northern
Point of Thailand, and left them with some Burmese
ladies who agreed to take care of them in Burma.
As Burma was then a closed country, Plaintiff found
some people smugglers who were then in the regular
business of smuggling people across international
borders. With their help, Plaintiff was able to smuggle
himself and the three children and one of their mothers
into Malaysia. There they caught a flight back to
Dubai, United Arab Emirates.
There they seemed to be safe as they had previous­
ly lived four years in the United Arab Emirates. But
Boonchoo had contacts in the United Arab Emirates
and when plaintiff got home in Fujairah after a long
and exhausting trip, he fell into a deep sleep. When
he woke up, the three children were gone. They too
had been kidnapped.
One child, Michael, was found in the Abu Dhabi
Police Station. The other two, Shamema and Jessica,
had been taken to the home of Charles and Shelby
Roberts in Madison Heights, Virginia. All this time

16
the Roberts had been claiming that they had legal
custody of Shamema, but this was not true. No petition
had been filed, no court hearing had been held, and
they had no claim, none whatever, to custody of these
children.
Plaintiff was told by Rick Groff, the social worker
of the Amherst County Department of Social Services
that he could just come by the Department of Social
Services offices and pick up his daughter Shamema
who would be waiting for him. But when he arrived
at the Social Services Offices, Plaintiff was arrested
by an order that had just been issued by Judge Janow.
Plaintiff based Jurisdiction of this case the First,
Fifth and Fourteenth Amendments to the Constitution
of the United States including Freedom of Religion,
the Civil Rights Acts including 42 U.S.C. § 1983, the
Voting Rights Acts, the RICO Corrupt Practice Acts,
and the right to Petition the Government for a redress
of grievances.
Plaintiff filed petitions to run for United States
Congress for the 6th Congressional District of Virginia,
which includes Roanoke, Lynchburg and most of the
Shenandoah Valley. Initially, Plaintiff was ruled off
the ballot because he had been convicted of the
“felony” of attempted abduction of his own daughter,
a charge that had been brought by defendant Bill
Petty who was a deacon of Jerry Falwell’s Thomas
Road Baptist. However, the Governor of Virginia signed
an order restoring the civil rights of Plaintiff. Plaintiff
collected all the required signatures, paid the substan­
tial filing fee and complied with all the requirements.
Still plaintiffs name did not appear on the ballot. No
reason or explanation had been given for this except
Defendant Maria Childress told Plaintiffs campaign

17
manager that her “boss” told her not to allow Plain­
tiffs name to appear on the ballot. This is the reason
the name of Maria Childress and other officials of the
Commonwealth appear on the list of defendants in
this case.
Neither the main defendant Maria Childress, nor
any of the other defendants have said anything about
this nor has the district court nor the court of appeals
said anything about this. The question is whether it
is not a violation of Plaintiffs constitutional rights
to be denied the opportunity to run for election in
Virginia. Plaintiff has in fact run for President of the
United States twice appearing in the New Hampshire
Primaries in 2016 and 2020.
Plaintiff contends the Virginia Felony Disenfranch­
isement law is unconstitutional generally and as it
applies to him. Virginia is the only state left that has
left undisturbed the Reconstruction Era Law that a
person cannot run for office if he has ever been con­
victed of a felony. Plaintiff was only convicted one
time and that was went Bill Petty convicted him of
attempted abduction of his own daughter. That was
not a felony because if it is only a felony if the child
was taken out of state. That never happened because
Sloan was arrested in his mother’s back yard at 917
Old Trents Ferry Road and the child had never left
the property. Petty based his conviction on the theory
that Sloan intended to take his child out of state
even though he had not actually done so.
Behind all this was the belief that the Sloan family
was wealthy. This was based on the coincidence that
the richest man in the world was Alfred P. Sloan Jr.,
who was the control stockholder of General Motors
Corporation, the largest industrial corporation of the

18
world. Sadly, the family of Samuel Sloan, the plain­
tiff here, never got any of that money. Alfred P. Sloan
Jr died without issue in 1966. He had no children.
He left all of his money to the Sloan Foundation
which now has one billion dollars in assets and to the
Sloan Kettering Cancer Institute. There is no evi­
dence of any kind that Samuel Sloan here is related
in any way to Alfred P. Sloan Jr.
The Virginia felony disenfranchisement law should
be struck down by this court and declared unconsti­
tutional under Marbury v. Madison. This will restore
the voting rights of more than 200,000 persons who
have been convicted of a felony and cannot vote. Almost
all of those 200,000 are Black or African-Americans
because it is well known that in Virginia a Black
person will be convicted whereas a White person will
not be charged at all and allowed to go free. This issue
has not been mentioned by any of the defendants
here or by the courts. It seems that all agree that this
law should be struck down.
The documents filed as exhibits with this case
establish Plaintiffs claim that the Defendants-Respondents have kidnapped and taken the child who
was 8 years old when she was finally kidnapped
away from the natural mother and father of the child
and have “awarded custody” of the child to unrelated
third parties, Charles and Shelby Roberts. There was
no jurisdiction for any court either in Virginia or in New
York or anywhere else to have done this. The Roberts
wanted this child for one reason only: Religion. The
natural parents of the child, the mother, Honzagool
of Chitral Pakistan, and the father, Plaintiff here,
were and are devoutly religious Muslims, whereas

19
Charles and Shelby Roberts were Jerry Falwell Fun­
damentalist Baptists and Christians.
On June 9, 2020, Shamema, who is now an adult,
for the first time made a long posting on Facebook
about what it was like to be brought to Virginia after
five years living in the United Arab Emirates with
her father, the Plaintiff here. Her name is Shamema
Stone now, a name she got by being married to a man
named Stone. She says that she felt so embarrassed
at being placed with strangers in a different country
that she just stopped talking. She would only speak
to Renuka and Jessica and she spoke to them in
Sinhala, the Sri Lankan Language, a language she had
learned after four years of living with Sri Lankans
who were domestic servants. Shelby told her not to
talk except in a language Shelby could understand,
so she just stopped talking. She says that she hated
her name that was so unusual (Shamema Honzagool
Sloan) that she wanted to change it, but she liked
being called Sloan because it is an Irish name. She
wanted to get away from there. She says that for this
reason she joined the United States Marines when she
turned 18 to get away from these people. This paints
a completely different picture from what the Roberts
Family would have you believe from their postings
here in this case. Here is Shamema’s complete state­
ment, in part in response to the notorious police
killing of George Floyd in Minneapolis. There have
been 71 comments thus far to this Facebook posting:

20

“Shamema Stone
“I don’t know what it’s like to be black in
America. But please let me tell you just a
tiny bit about something I do know: What
it’s like to be Pakistani in America. If you are
reading this, it is because you have been
my coworker, my friend, or maybe even my
mentor, boss, or teacher. I hope that no mat­
ter where you stand in the current political
climate, you will at least hear me out. I
hope you will at least read until the end.
This is my personal experience.
“In 1990, when I was 9 years old, I returned to
Virginia from 5 years of living predominantly
in the UAE with my father. I was so painfully
shy that I could barely speak out loud, even
at great detriment to myself. I wanted
nothing more than to fit into my new home.
I just wanted to be normal.
“Virginia didn’t quite know what to make of
me though. Rarely did I meet someone when
they didn’t ask me a question like, “Where
are you from?” “What are you?” “What kind
of name is that?” “Why do you eat such weird
food?”-I hated that I couldn’t just blend in.
I also hated that I was Pakistani. I was so
ashamed, especially because Desert Storm
was brewing, and there was a lot of antiMuslim sentiment in rural Virginia. I
resented those questions so much. I was so
embarrassed every time I was called out. I
would respond to the best of my ability,
“American!” or “Here, I’m from here.”

21

“I also hated my name. I cried about it often,
hating the questions so much. I begged
Charles & Shelby to let me change it, and
when they said no, I vowed that I would
change it myself as soon as I was old
enough. I never corrected anyone when they
pronounced it wrong or spelled it wrong. And
I always said I didn’t know where it came
from or what it meant. (Spoiler alert: I DID.)
And thankfully, I left Virginia as soon as I
turned 18 or my name might be Suzanne
now.
“Many of you were with me when these
moments happened. When I was singled out
for being different. But in all of the nine
years that I lived there, not once do I recall
anyone sticking up for me. Even though I
was so deathly shy, even though a lot of my
responses were just shrugs, not once did
someone chime in, “Hey! She’s with us,” Or
“She’s one of us.” Or how about, “Is that really
relevant?”
“Why?
“I challenge you to pause here, and sit with
the uncomfortableness. Why didn’t you ever
stick up for me?
“Did you just not care about me?
“Did you think, “That’s not my problem”?
“Did you think I had that situation under
control?
“Did you not think about me at all?

22

“Maybe.
“But more likely, it is because you didn’t know
it bothered me. You didn’t know because I
never told you. I. Never. Told. You.-But I’m
telling you now.
“So, do I want you to say you’re sorry? No.
Do I want your pity? No. Do I want you to
make reparations, maybe buy me a steak
dinner? No. Do I want you to tell me that
everyone has difficult childhoods? Do I want
you to go find the voice of another Pakistani
American that will make you feel better
about that heavy brick I just laid on your
chest? No and No.
“All I want is what I asked at the beginning.
I want you to hear me out, maybe feel a
little tug on your emotions, and perhaps not
act like I just made that up to make you
mad, or because of some political agenda
that you read about on the internet. I am a
real person. A person you know. It’s me,
Shamema. Your friend. Your coworker. Your
student. Your teammate. Your fellow Marine.
A person you know in real life. And this is
my experience. Whether you noticed or not,
that did happen. Quite regularly. It still
does. It still bothers me, too.
“Maybe you didn’t notice because it didn’t
affect you. Or maybe it was just easier to
pretend you didn’t notice. But you cannot
deny that other people’s experiences are
less valid than your own just because you
don’t experience them.

23

“There is a chance that you simply don’t know
what it’s like to be Pakistani in America,
because you have never been told. There is
also a chance that you simply don’t know
what it’s like to be black in America, because
you have never been told. But they are telling
you now. Please, please. I am begging you.Listen.
“Shamema Stone By the way, people still ask
me these questions all the time. Now, I do
say that my name and I are both Pakistani.
I am ashamed that I was ever ashamed.
“Shamema Stone Yes, and I got Honzagool,
so we’re in pretty much the same boat. Lol.
I was so distraught over my first name,
don’t even get me started on the middle. I
still hate showing people my driver’s license.
“Shamema Stone Shamema is an Arabic or
Urdu name that means fragrance. Honzagool,
my middle name is an Americanized version
of my mother’s name Khunza Gul. (Very
rough translation, haha!)-You gals already
know that becoming a Marine changed every­
thing for me.
“Shamema Stone Of course. It was harrowing
and painful to write, but I also know people
only hear when it hits home. And now is the
time for us to swing all the bats we have.
“Shamema Stone You in particular did me a
great service, because I took 8 of your classes
looking for the exact voice I am using today!
© I referenced you exactly yesterday, when
I said to Amanda Susen-“Mrs Allen taught

24
me about this in 9th grade! It’s the tu quoque
fallacy.”
“Shamema Stone Danielle Browitt Giiiiiiirl,
I’m the coolest Pakistani you know! Haha.
You have definitely always corrected people
for me. I feel like I can still hear you scream­
ing it in bars. Lol.-I miss working with both
of you. Once in a lifetime, that crew!
“Shamema Stone Lol. It IS perfectly phonetic.
You are pronouncing it correctly
“Shamema Stone Oh buddy, I love you, and
I will never forget those times we shared
either! I would never diminish what you
guys did for me. Without a group as tight as
we had, I might never have found my way.
You all adopted me. And though maybe I
never shared much of my past, we shared
the present and that made all the difference!
We gave each other the strength to survive.I’m so glad your happy little face bopped my
way through the moshpit that day. ©
“Shamema Stone All of the forward moment­
um I have carried in life, I gained in the
Marine Corps. I found my strength there
(both types). I found my fortitude there. But
most of all, I found my FAMILY there !-I love
hearing from so many of you. Thank you for
reaching out to me. Thank you for accepting
me, then and now. And seriously, thank you
for calling me Sloan, a wonderfully Irish
name. Lol ©©V
“Marsha Goodrum Daniel Wentworth Brad

25
Campbell Raquel Kuhfahl Kimberly KouziosLewisChris LangfordLinda Mihalec Deborah
Black Jennifer Eadeh Katie Anderson Waldon
“Shamema Stone I also want all of you to
know that I am not trying to undermine the
many amazing experiences we shared. You
were all my family when I felt like I didn’t
have one. Many of you adopted me just as
much as Charles & Shelby did.-I just hope
that through my experience, we can all
recognize that sometimes you can stand right
next to someone and have no idea what
they’re going through. It is not up to us to
correct their perspective. It is up to us to
humbly accept the times we have failed them,
to wrap them in empathy, and to strive to
continue improving our stance as an ally
and a friend. As you are all doing for me now.
I really appreciate your many kind words. I
am not mad at you, I promise. I harbor no
bad feelings about this. But I do know how
it feels. I also know I have failed many of my
friends in the same ways. Let’s be better.”
The Roberts had tried for years to pester Plain­
tiff and his family to join their church, the Temple
Baptist Church of Madison Heights Virginia, even
sending pastors of that church, Earl Clarkson and
Charles Esterline, uninvited to the Sloan Family
home to try to convert them. When that failed, the
Roberts resorted to crime, eventually chasing them
around the world to various countries of the world to
try to capture Plaintiff and his mother and all of the
children and to bring them back alive. When they

26

finally captured this child, the Roberts determined
that Shamema had been the subject of demonic
possession, due to her years spent with her father. So
they held an Exorcism for the purpose of evicting the
demons. They also felt they needed to Baptize Shame­
ma, so they had her head held under water for 16
seconds. This was contrary to the religion of her parents
and left the child confused as to who her parents
really were.
The elder Sloan, Leroy B. Sloan, was an attorney
and a Special Agent of the U.S. Treasury Department
and the Internal Revenue Service. He was a woman­
izer, with many lady friends. He used to have them
drive him around in their cars. However, this became
the family’s downfall because one of his girlfriends,
Alma Coates Dawson, claimed to have married Leroy
B. Sloan on his deathbed in the Emergency Room of
the Lynchburg General Hospital on New Years Eve
1974, while he was suffering from brain seizures and
attached to life support equipment. Upon his death,
her lawyer, the law firm of Pendleton and Gamble,
renounced his will, meaning that Alma stood to get
the money, if it existed, and they filed a court case
against Plaintiff and his mother.
Alma believed that Leroy B. Sloan, the elder Sloan,
had been left $50 million in General Motors stock by
his father, and that those stock certificates were to
be found in his safe deposit box. However, the plain­
tiff here, Sam Sloan, knows the truth because he was
and is the court appointed administrator of his
father’s estate. Plaintiff knew and knows that his
father owned less than two hundred shares in General
Motors stock and he had purchased those shares in

27

the monthly stock dividend reinvestment plan, and
the shares were not received from an inheritance.
Alma Dawson’s attorney, Pendleton and Gamble,
served subpoenas on all the banks in Lynchburg,
seeking access to the contents of Leroy Sloan’s safe
deposit boxes. What they did not know, but Plaintiff
knew, was that Leroy B. Sloan did not have a safe
deposit box. Plaintiffs mother, Dr. Helen Marjorie
Sloan, owned the two safe deposit boxes and she had
allowed Leroy Sloan to keep his stock certificates in
her boxes. She almost seemed to have known what
would happen.
Plaintiffs father, Leroy B. Sloan, was an attorney
and a member of the Virginia State Bar. He was a
special agent for the United States Treasury Depart­
ment and for the Internal Revenue Service. Plaintiffs
mother, Dr. Helen Marjorie Jacobson Sloan, was child
psychiatrist director of the Memorial Child Guidance
Clinic in Richmond Virginia, of the Lynchburg Gui­
dance Center in Lynchburg, director of the Virginia
Department of Mental Health and Hygiene, and
Director of Western State Hospital in Staunton, a
Psychiatric Hospital, and a Home for Unwed Mothers,
which is now The Educational Development Center,
GEARA Group, Inc., 3001 Fifth Avenue, Richmond, VA
23222. Some of the older employees there still
remember his mother. The biography of Dr. Helen
Marjorie Sloan is published in the First Edition of
Who’s Who in American Women.
Creighton Sloan, who we long assumed and
believed to be the natural brother of Sam Sloan, was
constantly ill and had difficulty holding a job. Creighton
hated Dr. Marjorie Sloan and often said he was deter­
mined to get revenge on her. He always called her,

28

“Mrs. Sloan”, never referring to her as his mother. He
often said to her “I hate you with a purple passion.” He
would keep kidnapping his presumed mother Dr. Helen
Marjorie Sloan and take her down to his home in
Raleigh North Carolina. There he would re-route her
Social Security check and her retirement check from
the Virginia Supplemental Retirement System to his
address in North Carolina, so he would get the money.
At least twice, Dr. Marjorie Sloan escaped from the
house Creighton had bought with her money and she
returned to her own home at 917 Old Trent’s Ferry
Road in Lynchburg, and she then had the checks re-rerouted back to her own home address.
We have now established with virtual certainty
that Creighton Sloan is not the biological son of Dr.
Helen Marjorie Sloan. She undoubtedly got him from
one of the homes for unwed mothers where she was
the director including the Florence Crittenton Home
and she issued a birth certificate showing herself as
the mother. Prior to modern DNA testing, nobody
would have ever guessed this relationship.
Dayawathe and Renuka, the mothers of the
children, are still with us after all these years and are
waiting for news about this case. They are anxious to
testify at any court hearing about this case. They each
call me every day and ask me about the progress of
this case. They are both U.S. Citizens now. They voted
for Trump.

29

REASONS FOR GRANTING THE PETITION
Defendants J. Michael Gamble, Lawrence Janow
and Norman K. Moon made motions to dismiss, citing
cases such as Pierson v. Ray, 386 U.S. 547, 553 (1967)
and Stump v. Sparkman, 435 U.S. 349 (1978), which
they say make them immune from suit as they are
judges.
However, they are no longer judges, having not
been re-appointed by the Virginia State Legislature,
and were only immune from suit when they were
sued for their JUDICIAL ACTS, within their juris­
diction. Here they did not commit any judicial acts.
Their acts did not take place in any courtroom with
hearings held and witnesses called, rulings made, etc.
In all the allegations of the complaint, you will not
see any actual court decisions made by these defend­
ants. For example, Judge Janow in Amherst County
Family Court called Judge Kristin Booth Glen in New
York Supreme Court and asked her to have Sloan
and his mother arrested and his daughter Shamema
extradited to Virginia. Was this a judicial act? Can
Plaintiff appeal from this telephone call? Judge Glen
did write a note in the record, so there is evidence
this call took place, but it is submitted Judge Janow
is NOT immune from suit for this.
Similarly, it is known that Judge Janow made
many, many telephone calls over a period of years,
even contacting the U.S. Chess Team in Dubai and
the U.S. Consul General in Dubai, trying to have Sloan
detained there, but it is submitted these were not

30

judicial acts and thus Janow who is on the list of
defendants here is not immune from suit.
In Pierson v. Ray, 386 U.S. 547, 554 (1967), the
U.S. Supreme Court held
it is established at common law than the
immunity of judges from liability for damages
for acts committed within their judicial juris­
diction, as this Court recognized when it
adopted the doctrine, in Bradley v. Fisher,
13 Wall. 335 (1872). This immunity applies
even when the judge is accused of acting
maliciously and corruptly, and it “is not for
the protection or benefit of a malicious or
corrupt judge, but for the benefit of the public,
whose interest it is that the judges should
be at liberty to exercise their functions with
independence and without fear of consequen­
ces.” CScott v. Stansfield, L.R. 3 Ex. 220, 223
(1868), quoted in Bradley v. Fisher, supra,
349, note, at 350.) It is a judge’s duty to decide
all cases within his jurisdiction that are
brought before him, including controversial
cases that arouse the most intense feelings
in the litigants. His errors may be corrected
on appeal, but he should not have to fear
that unsatisfied litigants may hound him
with litigation charging malice or corruption.
Imposing such a burden on judges would
contribute not to principled and fearless
decision-making but to intimidation.”
Here, that does not apply because Plaintiff and his
children were never in Judge Janow’s jurisdiction.
Judge Janow’s jurisdiction was limited both to his
court, a Virginia family court that is supposed to

31
decide only “small cases”, and to cases within Amherst
County. Once the case goes outside Amherst County,
such as to Lynchburg, Judge Janow loses all jurisdic­
tion.
Ed Meeks, the Amherst County Commonwealth
Attorney, knew that and for that and other reasons
dismissed or nolle processed all the cases involving
Judge Janow and Charles and Shelby Roberts in
Amherst County. That is the reason, when Sloan
returned to Amherst to recover his daughter Shamema,
Rick Groff told him that there was no pending case
against him. When Sloan came to the Amherst County
Department of Social Services expecting to pick up
his daughter Shamema, he was instead arrested by
Sheriff Michael Cox. Sloan believed he had been tricked
by Groff. However, he was later informed by Sam Kerr,
the Appomattox County Commonwealth Attorney,
that Groff had not tricked him. Instead Judge Janow
had started a new case against Sloan and issued a
new order, even though the statute of limitations on
a misdemeanor charge, which this one was, is only
one year.
The New York Court of Appeals decided in Bennett
v. Jeffreys, 40 N.Y.2d 543 (1976) that unrelated third
parties may not sue for the custody of a child. The
Roberts and their attorney Frank Davidson III claim
the Virginia Courts got jurisdiction through a transfer
order from New York, but that was not true as no
such order was ever issued.
WHEREFORE the decisions of the district court
should be reversed and this case should be remanded
to the district court and proceed to trial.

32

CONCLUSION
Petitioner Samuel H. Sloan respectfully requests
his petition for a writ of certiorari to be granted.
Respectfully submitted,
Samuel H. Sloan
Petitioner Pro Se
1664 Davidson Avenue,
Apartment IB
Bronx, NY 10453
(917) 659-3397
June 7,2021

